App. 1
NOTE: This disposition is nonprecedential.
United States Court of Appeals
for the Federal Circuit
-----------------------------------------------------------------------

FAST 101 PTY LTD.,
Plaintiff-Appellant
v.
CITIGROUP INC., CITIBANK, N.A.,
Defendants-Appellees
-----------------------------------------------------------------------

2020-1458
-----------------------------------------------------------------------

Appeal from the United States District Court for
the District of Delaware in No. 1:19-cv-01819-RGA,
Judge Richard G. Andrews.
-----------------------------------------------------------------------

Decided: November 25, 2020
-----------------------------------------------------------------------

ROBERT R. BRUNELLI, Sheridan Ross P.C., Denver,
CO, for plaintiff-appellant. Also represented by MATTHEW CHRISTIAN HOLOHAN.
JOHN MOEHRINGER, Cadwalader, Wickersham &
Taft LLP, New York, NY, for defendants-appellees. Also
represented by HOWARD WIZENFELD.
-----------------------------------------------------------------------

App. 2
Before NEWMAN, LOURIE, and CHEN, Circuit Judges.
CHEN, Circuit Judge.
Fast 101 Pty Ltd. (Fast 101) appeals from a decision of the United States District Court for the District
of Delaware dismissing its complaint for failure to
state a claim and denying its motion for leave to take
targeted discovery and amend its complaint. The district court found that all claims of the asserted patents
recite patent-ineligible subject matter under 35 U.S.C.
§ 101. We afﬁrm.
BACKGROUND
Fast 101 brought suit against CitiGroup Inc. and
Citibank, N.A. (collectively, Citi) alleging infringement of all claims of five of its patents: U.S. Patent
Nos. 8,515,867 (’867 patent), 8,660,947 (’947 patent),
8,762,273 (’273 patent), 9,811,817 (’817 patent), and
10,115,098 (’098 patent) (collectively, the asserted patents). The asserted patents share a common written
description and all relate “generally to data processing
systems, and more particularly, to electronic trading
and settlement systems,” ’867 patent col. 1 11. 19-21.
The asserted patents describe “an invoiceless trading
system that creates incentives for customers to pay
suppliers within a predetermined period of time, such
as a settlement period.” Id. at abstract. This system
“enables a customer to obtain a discount on orders
placed with suppliers in return for an immediate payment.” Id. Claim 1 of the ’867 patent is representative
of all 234 asserted claims:

App. 3
1. A system conﬁgured for electronic settlement of an order placed by a customer with a
supplier comprising:
one or more bank servers, at least one of the
one or more bank servers receives a message
related to the order, the message comprising
at least an order amount;
a database associated with at least one of the
one or more bank servers that stores the order
amount;
one or more processors associated with at
least one of the one or more bank servers that
determines an incentive amount, wherein the
incentive amount is determined based at least
in part on one or more ﬁscal attributes of the
customer and the order amount; and
a payment gateway associated with at least
one of the one or more bank servers, the payment gateway electronically transfers to a
supplier account on a ﬁrst date an early payment for the order, the supplier account associated with the supplier, wherein the early
payment is less than the order amount by at
least the incentive amount, and the payment
gateway that electronically receives a customer payment from a customer account on a
second date, the customer account associated
with the customer, wherein the customer payment is not less than the early payment plus
an interest amount, wherein the interest
amount is based at least in part on a credit
period, wherein the credit period is an amount

App. 4
of time between the ﬁrst date and the second
date.
Id. at claim 1; see also Fast 101 Pty Ltd. v. Citigroup
Inc., 424 F. Supp. 3d 385, 387-88 (D. Del. 2020) (ﬁnding
claim 1 representative); Berkheimer v. HP Inc., 881
F.3d 1360, 1365 (Fed. Cir. 2018) (“Courts may treat a
claim as representative . . . if the patentee does not
present any meaningful argument for the distinctive
signiﬁcance of any claim limitations not found in the
representative claim.”).
In response to Fast 101’s complaint, Citi ﬁled a
motion to dismiss under Fed. R. Civ. P. 12(b)(6) for failure to state a claim under which relief can be granted,
arguing that all the asserted claims recite patent-ineligible subject matter under § 101. Fast 101 contended
primarily in response that the asserted claims are
valid and sought leave for targeted discovery and to
amend its complaint. The district court granted Citi’s
motion to dismiss and denied Fast 101 leave to amend
and conduct targeted discovery.
Applying the Supreme Court’s § 101 two-step inquiry from Alice Corp. Pty. Ltd. v. CLS Bank International, 573 U.S. 208, 217-18 (2014), the district court
reasoned that the asserted claims are directed to the
abstract idea of “an intermediated settlement system”
with “a discount for early payment.” Fast 101, 424
F. Supp. 3d at 390. The district court then concluded
that “[n]one of the claimed elements, taken individually or as an ordered combination, provide the required
inventive concept ‘sufﬁcient to ensure that the patent

App. 5
in practice amounts to signiﬁcantly more than a patent
upon the ineligible concept itself.’ ” Id. at 392 (citing
Alice, 573 U.S. at 218). In denying Fast 101’s motion for
leave, the district court explained that leave would “be
futile.” Id. at 393. Fast 101 timely appealed. We have
jurisdiction pursuant to 28 U. S. C. § 1295(a)(1).
DISCUSSION
We apply the law of the regional circuit when reviewing a district court’s disposition of a motion to dismiss for failure to state a claim. FairWarning IP, LLC
v. Iatric Sys., Inc., 839 F.3d 1089, 1092 (Fed. Cir. 2016).
The Third Circuit “review [s] de novo a district court’s
grant of a motion to dismiss for failure to state a claim
under Federal Rule of Civil Procedure 12(b)(6).” Ballentine v. United States, 486 F.3d 806, 808 (3d Cir.
2007). We review de novo the determination that a
claim is directed to patent-ineligible subject matter,
Enﬁsh, LLC v. Microsoft Corp., 822 F.3d 1327, 1334
(Fed. Cir. 2016), and under Third Circuit law, we review
“a district court’s denial of leave to amend for abuse of
discretion,” City of Cambridge Ret. Sys. v. Altisource Asset Mgmt. Corp., 908 F.3d 872, 878 (3d Cir. 2018).
Section 101 allows inventors to obtain patents on
“any new and useful process, machine, manufacture, or
composition of matter, or any new and useful improvement thereof.” The Supreme Court, however, has held
that certain categories of subject matter, including
abstract ideas, are not eligible for patent protection
under § 101. Mayo Collaborative Servs. v. Prometheus

App. 6
Labs., Inc., 566 U.S. 66, 70 (2012). “The abstract ideas
category embodies the longstanding rule that an idea
of itself is not patentable.” Alice, 573 U.S. at 218 (internal brackets and quotation marks omitted). To determine whether claimed subject matter is patent eligible,
we apply the two-step framework enumerated in Alice.
Id. We ﬁrst “determine whether the claims at issue are
directed to a patent-ineligible concept.” Id. If so, we “examine the elements of the claim to determine whether
it contains an inventive concept sufﬁcient to transform
the claimed abstract idea into a patent-eligible application.” Id. at 221 (internal quotation marks omitted)
(quoting Mayo, 566 U.S. at 72, 80). At each step, the
claims should be considered as a whole. See id. at 218
n.3, 225.
A
Applying Alice step one, we agree with the district
court and Citi that the claims are directed to the abstract idea of an intermediated settlement system that
employs a discount for early payment. As the district
court explained, “[L]ike Alice, these claims describe a
method of exchanging ﬁnancial obligations between
two parties by the use of a third-party intermediary.”
Fast 101, 424 F. Supp. 3d at 390. The asserted patents
do, however, recite an element not found in the claims
in Alice—an “incentive amount.” ’867 patent at claim
1. But we agree with the district court’s further ﬁnding
that this incentive amount, or discount, describes nothing more than the abstract idea of calculating an
amount based on ﬁscal attributes, see Fast 101, 424

App. 7
F. Supp. 3d at 390, just as we concluded in Mortgage
Grader, Inc. v. First Choice Loan Services Inc., 811 F.3d
1314, 1324 (Fed. Cir. 2016) (determining that generating a discounted loan price is an abstract idea). Fast
101 contends that the claims are directed to “an improved method of obtaining an early payment for the
supplier based on various attributes of the speciﬁc
transaction using the claimed system,” Appellant’s Br.
at 11-12, such improvements including “[i]ncreased
cash ﬂow” and “[c]ost reduction through automation
and paper reduction,” id. at 15 (citation and internal
quotation marks omitted). This argument fails to persuade; the so-called improvements resulting from the
claimed method are simply improvements attendant to
using electronic systems. Contrary to Fast 101’s contentions, these improvements do not demonstrate that
the “[p]atents-in-[s]uit are drawn to a particular improvement in the function of prior art technology, and
thus properly not considered drawn to an abstract
idea.” Id. at 14 (citation, internal quotation marks, and
brackets omitted).
B
Under Alice step two, we conclude that the claims
do not recite any inventive concept to render them patent eligible. Fast 101’s main argument on appeal is
that the asserted patents recite “numerous technical
improvements to electronic trading systems,” id. at 19,
including “specialized gateway technology,” id. We disagree. Just as the district court concluded, the claims
refer to nothing more than well-understood, routine,

App. 8
and conventional technology components. See Fast 101,
424 F. Supp. 3d at 392. The claimed payment gateway
cannot be construed as specialized in any sense. See id.
at 391-92 and n.5 (explaining that the ’867 patent’s
written description demonstrates an understanding
that the gateway is nothing more than “conventional
commercially-available browsers and products”).
CONCLUSION
We have considered Fast 101’s remaining arguments and are unconvinced. Further, Fast 101 has
failed to provide any persuasive reason why the district court abused its discretion in denying leave to
take targeted discovery and to amend because Fast 101
has not identiﬁed with speciﬁcity any additional factual allegations or claim constructions that would render amendment and discovery not futile. We therefore
afﬁrm.
AFFIRMED

App. 9
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF DELAWARE
FAST 101 PTY LTD.,
Plaintiff,
v.
CITIGROUP INC.
and CITIBANK, N.A.,

Civil Action No.
19-1819-RGA

Defendants.
MEMORANDUM OPINION
(Filed Jan. 30, 2020)
Raymond H. Lemisch and Sean M. Brennecke, KLEHR
HARRISON HARVEY BRANZBURG, LLP, Wilmington, DE; and Robert R. Brunelli, Matthew C. Holohan,
and Tara K. Hawkes, SHERIDAN ROSS P.C., Denver,
CO, Attorneys for Plaintiff.
Kelly E. Farnan and Valerie A. Caras, RICHARDS,
LAYTON & FINGER, P.A., Wilmington, DE; and Howard Wizenfeld and Maegan A. Fuller, CADWALADER,
WICKERSHAM & TAFT LLP, New York, NY, Attorneys for Defendants.
January 30, 2020
/s/ Richard G. Andrews
ANDREWS, UNITED STATES DISTRICT JUDGE:
Before me is Defendants’ Motion to Dismiss for
failure to state a claim. (D.I. 14). I have reviewed the
parties’ brieﬁng. (D.I. 15, 17, 20). Because I ﬁnd that

App. 10
none of the claims in the Asserted Patents claim patent-eligible subject matter, I will grant Defendants’
motion.
I.

BACKGROUND

Plaintiff alleges Defendants infringe all of the
claims of U.S. Patent Nos. 8,515,867 (“the ’867 patent”),
8,660,947 (“the ’947 patent”), 8,762,273 (“the ’273 patent”), 9,811,817 (“the ’817 patent”), and 10,115,098
(“the ’098 patent”) (collectively, the “Asserted Patents”).
The Asserted Patents, all of which have a common
specification, “relate[] generally to data processing
systems, and more particularly, to electronic trading
and settlement systems.” (D.I. 1, Ex. 1 at 1:19-21). The
patents claim priority to an Australian patent application ﬁled on May 3, 1999. (Id. at 1:6-14).
Defendants move to dismiss the complaint pursuant to Federal Rule of Civil Procedure 12(b)(6) for failure to state a claim upon which relief can be granted.
(D.I. 14). Defendants argue that none of the claims in
the Asserted Patents claim patent-eligible subject matter, and thus are all invalid under 35 U.S.C. § 101. (D.I.
15). Defendants also contend that Plaintiff has failed
sufﬁciently to plead indirect or willful infringement of
any of the claims of the Asserted Patents.
I ﬁnd Claim 1 of the ’867 patent representative of
all 234 claims of the Asserted Patents for the purposes
of determining whether the claims recite patenteligible subject matter. First, the independent claims
in the remaining patents recite the same concept as

App. 11
described in the ’867 patent, an incentive system applied to trade between a customer, a supplier, and a
provider of funds. The dependent claims discuss, for
example, variations in “incentive amount” based on
different factors,1 a “message” containing the various
amounts involved in the ﬁnancial transaction,2 an
“agreement” between the provider of funds and the
supplier,3 and an “electronic network” used to communicate a message.4 Plaintiff argues that these additional limitations add inventive concepts to the claims.
(D.I. 17 at 15). But none of these asserted limitations
in the dependent claims offer any improvement—or
even signiﬁcant variation—in technical functioning of
the claimed invention.
Because all of the independent claims of the remaining patents recite the same concept as described
in the ’867 patent, and the dependent claims offer only
minor, non-technical variations, I will consider claim 1
of the ’867 patent as representative of the other claims
in the Asserted Patents. See Content Extraction &
Transm’n LLC v. Wells Fargo Bank, N.A., 776 F.3d
1343, 1348 (Fed. Cir. 2014). “[C]ourts may treat a claim
1

See ’876 Patent at Cls. 2, 6, 17; ’947 Patent at Cls. 6, 32, 47,
51, 55, 76, 80, 84, 102, 107, 111, 129, 137, 155, 159; ’273 Patent at
Cls. 3, 10, 17.
2
See ’876 Patent at Cl. 5; ’947 Patent at Cls. 2, 5, 12, 31, 46,
54, 75, 83, 101, 110, 128, 133, 136, 154, 158; ’273 Patent at Cls.
10, 21, 31.
3
See ’876 Patent, Cls. 7, 14; ’947 Patent, Cls. 7, 15, 23, 26,
38, 41, 56, 67, 70, 85, 93, 96, 112, 120, 123, 138, 146, 149.
4
See ’876 Patent, Cl. 9; ’947 Patent, Cls. 9, 17, 58, 87, 114,
140; ’098 Patent, Cls. 9, 20, 30.

App. 12
as representative . . . if the patentee does not present
any meaningful argument for the distinctive signiﬁcance of any claim limitations not found in the representative claim.” Berkheimer v. HP Inc., 881 F.3d 1360,
1365 (Fed. Cir. 2018).
The claims recite a system to: (1) receive an order
from a customer, (2) store the order, (3) determine a
discount, (4) pay a supplier a discounted amount from
a fund provider, and (5) receive customer payment at a
later date. (D.I. 1). Representative claim 1 recites:
A system conﬁgured for electronic settlement
of an order placed by a customer with a supplier comprising:
one or more bank servers, at least one of the
one or more bank servers receives a message
related to the order, the message comprising
at least an order amount;
a database associated with at least one of the
one or more bank servers that stores the order
amount;
one or more processors associated with at
least one of the one or more bank servers that
determines an incentive amount, wherein the
incentive amount is determined based at least
in part on one or more ﬁscal attributes of the
customer and the order amount; and
a payment gateway associated with at least
one of the one or more bank servers, the payment gateway electronically transfers to a
supplier account on a first date an early payment for the order, the supplier account

App. 13
associated with the supplier, wherein the
early payment is less than the order amount
by at least the incentive amount, and the payment gateway that electronically receives a
customer payment from a customer account
on a second date, the customer account associated with the customer, wherein the customer payment is not less than the early
payment plus an interest amount, wherein
the interest amount is based at least in part
on a credit period, wherein the credit period is
an amount of time between the ﬁrst date and
the second date.
II.

LEGAL STANDARD
a. Patent-Eligible Subject Matter

Patentability under 35 U.S.C. § 101 is a threshold
legal issue. Bilski v. Kappos, 561 U.S. 593, 602 (2010).
Accordingly, the § 101 inquiry is properly raised at the
pleading stage if it is apparent from the face of the patent that the asserted claims are not directed to eligible subject matter. See Cleveland Clinic Found. v. True
Health Diagnostics LLC, 859 F.3d 1352, 1360 (Fed. Cir.
2017), cert. denied, 138 S. Ct. 2621 (2018). This is, however, appropriate “only when there are no factual allegations that, taken as true, prevent resolving the
eligibility question as a matter of law.” Aatrix Software, Inc. v. Green Shades Software, Inc., 882 F.3d
1121, 1125 (Fed. Cir. 2018).
Section 101 of the Patent Act defines patenteligible subject matter. It provides: “Whoever invents

App. 14
or discovers any new and useful process, machine,
manufacture, or composition of matter, or any new and
useful improvement thereof, may obtain a patent
therefor, subject to the conditions and requirements of
this title.” 35 U.S.C. § 101. The Supreme Court has recognized an implicit exception for three categories of
subject matter not eligible for patentability—laws of
nature, natural phenomena, and abstract ideas. Alice
Corp. Pty. v. CLS Bank Int’l, 573 U.S. 208, 215 (2014).
The purpose of these carve-outs is to protect the “basic
tools of scientiﬁc and technological work.” Mayo Collaborative Servs. v. Prometheus Labs., Inc., 566 U.S. 66,
71 (2012). “[A] process is not unpatentable simply because it contains a law of nature or a mathematical
algorithm,” as “an application of a law of nature or
mathematical formula to a known structure or process
may well be deserving of patent protection.” Id. at
1293-94 (internal quotation marks and emphasis omitted). In order “to transform an unpatentable law of nature into a patent-eligible application of such a law, one
must do more than simply state the law of nature
while adding the words ‘apply it.’ Id. at 72 (emphasis
omitted).
The Supreme Court reaffirmed the framework
laid out in Mayo “for distinguishing patents that
claim laws of nature, natural phenomena, and abstract
ideas from those that claim patent-eligible applications of those concepts.” Alice, 573 U.S. at 217. First,
the court must determine whether the claims are
drawn to a patent-ineligible concept. Id. If the answer
is yes, the court must look to “the elements of the claim

App. 15
both individually and as an ‘ordered combination’ to
see if there is an ‘inventive concept’—i.e., an element
or combination of elements that is ‘sufﬁcient to ensure
that the patent in practice amounts to signiﬁcantly
more than a patent upon the [ineligible concept] itself.’
Id. (alteration in original). “A claim that recites an abstract idea must include ‘additional features’ to ensure
that the [claim] is more than a drafting effort designed
to monopolize the [abstract idea].” Id. at 221. Further,
“the prohibition against patenting abstract ideas cannot be circumvented by attempting to limit the use of
[the idea] to a particular technological environment.”
Id. at 222 (quoting Bilski, 561 U.S. at 610-11). Thus,
“the mere recitation of a generic computer cannot
transform a patent-ineligible abstract idea into a patent-eligible invention.” Id. For this second step, the
machine-or-transformation test can be a “useful clue,”
although it is not determinative. Ultramercial, Inc. v.
Hulu, LLC, 772 F.3d 709, 716 (Fed. Cir. 2014).
“Patent eligibility under § 101 is a question of law
that may contain underlying issues of fact.” Solutran,
Inc. v. Elavon, Inc., 931 F.3d 1161, 1165 (Fed. Cir. 2019).
Whether a claim is drawn to patent-eligible subject
matter “is a matter of both claim construction and statutory construction.” In re Bilski, 545 F.3d 943, 951 (Fed.
Cir. 2008), aff ’d sub nom. Bilski v. Kappos, 561 U.S. 593
(2010). Claim construction is a question of law. See
Teva Pharm. USA, Inc. v. Sandoz, Inc., 135 S. Ct. 831,
837 (2015) (citing Markman v. Westview Instruments,
Inc., 517 U.S. 370, 388-91 (1996)).

App. 16
III. DISCUSSION
a. Patent Eligible Subject Matter
i. The Asserted Patents Claim an Abstract Idea
The claimed invention comprises “methods and
systems . . . [which] provid[e] an invoiceless trading
system that creates incentives for customers to pay
suppliers within a predetermined period of time, such
as a settlement period.” (D.I. 1, Ex. 1 at Abstract). The
incentive system between suppliers and customers
uses “an intermediary settlement institution, such as
a bank.” (D.I. 1 at ¶ 30). Defendants argue that the
claims fail under step one of the Alice framework for
claiming the abstract idea of an intermediated settlement system, the same abstract idea presented in Alice. (D.I. 15 at 8; see Alice, 573 U.S. at 219-21). In Alice,
the claims “involve[d] a method of exchanging ﬁnancial
obligations between two parties using a third-party intermediary to mitigate settlement risk.” 573 U.S. at
219. Like Alice, these claims describe a method of exchanging ﬁnancial obligations between two parties by
the use of a third-party intermediary.
Distinguished from the facts in Alice, the claims
further recite “an incentive amount” (i.e., a discount)
for an early payment, which is facilitated by having the
bank pay the supplier and receive customer payment
at a later date. (D.I. 1, Ex. 1 at 8:56-60). Although the
idea of providing a discount for early payment was not
discussed in Alice, Defendants argue that the idea of
providing a discount for early payment is “merely a

App. 17
marketing and advertising concept,” which the Federal
Circuit has held to be an abstract idea. (D.I. 15 at 1,
citing Intell. Ventures I LLC v. Cap. One Bank (USA),
792 F.3d 1363, 1369 (Fed. Cir. 2015) (ﬁnding tailored
advertisement to be an abstract idea)). Whether or
not the discounting concept can be considered marketing, the Federal Circuit has found that calculating
an amount based on ﬁscal attributes to be an abstract
idea. Mortg. Grader, Inc. v. First Choice Loan Servs.,
Inc., 811 F.3d 1314, 1324 (Fed. Cir. 2016).
Plaintiff argues that the Asserted Patents are
drawn to “a particular improvement in the functioning
of prior art,” and thus are not drawn to an abstract
idea. (D.I. 17 at 7, citing Uniloc USA, Inc. v. ADP, LLC,
772 F. App’x 890, 898 (Fed. Cir. 2019)). The cited case
law, however, is irrelevant with regards to supporting
Plaintiffs claim because Plaintiff goes on to describe an
incentive system designed to encourage customer and
supplier participation in “existing trading and settlement systems.” (D.I. 17 at 7, citing Ex. 1 at 2:66-3:5).
The patents do not claim “a particular improvement in
how this is done.” See Uniloc, 772 F. App’x at 897. The
“incentive system,” rather, is “at the heart of the
claimed invention.” (D.I. 17 at 17). I am thus convinced
that the Asserted Patents claim an abstract idea.
ii. The Asserted Patents Contain No Inventive Concept
Plaintiff states that the Asserted Patents claim
technology that improves upon identiﬁed existing

App. 18
systems but offers little support for this contention.
(D.I. 17 at 3). The complaint pleads that (1) “claims of
the Patents-in-Suit go beyond well-understood, routine, conventional activities,” (2) “existing electronic
trading systems such as Internet-based trading systems had signiﬁcant limitations,” and (3) the claimed
incentive calculation method was an improvement
over deﬁcient prior art incentive systems. (D.I. 1 at
¶¶ 14, 15, 30).
In its complaint, Plaintiff acknowledges that “prior
art systems could calculate discounts,” but alleges that
the inventive concept in its patents is directed to “calculated incentives based on the circumstances of the
transaction itself, such as the customer’s credit standing or the timing of payment.” (D.I. 1 at ¶ 15). I do not
ﬁnd that providing a discount based on early payment
and a customer’s credit rating is a practice that transforms the claims beyond “a fundamental economic
practice long prevalent in our system of commerce,”
similar to the concepts of “hedging risks” in Bilski and
“intermediate settlement” in Alice. See Alice, 573 U.S.
at 219-21 (holding “the concept of intermediated settlement is ‘a fundamental economic practice’ ” and is
“squarely within the realm of ‘abstract ideas’”); Solutran,
931 F.3d at 1166-67 (holding “crediting a merchant’s
account as early as possible while electronically processing a check” is an abstract idea). Plaintiff acknowledges in its complaint that “existing electronic trading
systems such as Internet-based trading systems”
“could calculate discounts for an item to be offered for
purchase.” (D.I. 1 at ¶¶ 15, 30).

App. 19
Despite Plaintiff ’s assertion to the contrary, the
Asserted Patents also fail to offer a speciﬁc improvement in banking technology. See D.I. 17 at 9-10. The
complaint speciﬁcally states that the inventor developed an electronic system “based on incentives that
would encourage participation in the system among all
participants in the transactions.” (D.I. 1 at ¶ 15, citing
D.I. 1, Ex. 5 at 2:9-15). The claims do not provide a technical solution to the problem of participation. Instead,
the claims offer an incentive to use the electronic trading system. (D.I. 1, Ex. 1 at 2:9-25). The various improvements are described as including “incentives to
embrace e-commerce,” “increased cash ﬂow,” “cost reduction,” and “increased proﬁts.” (D.I. 1 at ¶ 26, citing
Ex. 1 at 4:5-11, 4:15-51). None of these features are
technical improvements. It may be “well-settled that
improvements to the functioning of prior art technical
systems constitute inventive concepts that establish
patent eligibility under Section 101.” (D.I. 17 at 9, citing SRI Int’l, Inc. v. Cisco Systems, Inc., 930 F.3d 1295,
1300 (Fed. Cir. 2019); Cellspin Soft, Inc. v. Fitbit, Inc.,
927 F.3d 1306, 1309 (Fed. Cir. 2019); Ancora Techs., Inc.
v. HTC America, Inc., 908 F.3d 1343, 1344 (Fed. Cir.
2018)). But here, there is no cognizable improvement
to the functioning of a prior art technical system at all.
Plaintiff attempts to distinguish its incentive system as being “implemented through a speciﬁc arrangement of technical components.” (D.I. 1 at ¶ 15, citing
Ex. 1 at 3:25-32, 3:36-38, 3:45-54, Fig. 1A, Fig. 4.).
Plaintiff insists that the asserted claims involve “a specially-designed and unique payment gateway,” which

App. 20
sets the claimed technology apart from a solution that
simply uses known electronic components. (D.I. 17
at 2, citing D.I. 1 at ¶ 17; see D.I. 1, Ex. 1 ’867 patent
at 5:66-67). The specification, however, describes generic servers and computers performing routine, wellunderstood and conventional functions. (D.I. 1, Ex. 1 at
5:23-66). While I normally accept whatever claim construction the plaintiff proffers at the Rule 12(b)(6)
stage, to the extent that Plaintiff argues that the claimed
phrase “payment gateway” should be construed as “a
specially-designed and unique payment gateway,” this
is simply implausible.5
In implementing the intermediated settlement
system, the claimed system describes utilizing a “gateway,” akin to an interne or intranet service, with optional additional functions such as security measures
or “translation, logging, and forwarding services.” See
D.I. 1, Ex. 1 at 3:41-56. The claims recite functionality
such as “receiv[ing]” a message, “determin[ing]” an incentive amount, “transfer[ring]” payment and “electronically paying.” See, e.g. id. at 8:49-9:07, Ex. 2 at 10:35-47.
The claimed “bank server” moreover uses a generic
server that includes well-known and conventional
5

The patent speciﬁcation describes the gateway in terms of
conventional commercially-available browsers and products that
facilitate the transfer of information such as “Netscape Navigator
browser, from Netscape Communications Corp., and Internet
Explorer browser, from Microsoft Corp.” and the “AT&T INTERCOMMERCE gateway, available by AT&T.” (D.I. 1, Ex. 1 at 3:4156, 5:23-36). “Gateway” as described in the claims uses the internet and internet browsers in their typical conventional manners,
such as sending and receiving information.

App. 21
settlement software. (Id. at 1:44-50, 5:57-67). As further examples, the claimed database and processor are
described in the speciﬁcation as using components
such as “memory” and “CPU,” which were also wellknown and conventional at the time of the Asserted
Patents’ priority date. (Id. at 5:57-67).
The Federal Circuit has held that the type of computer functionality described in the Asserted Patents
is routine and conventional. See Content Extraction,
776 F.3d at 1348 (holding “processing technology to
recognize and store data” is “well-understood, routine
and conventional”); In re Greenstein, 778 F. App’x 935,
939 (Fed. Cir. 2019) (holding “stor[ing], process[ing],
and transmit[ting] information” is “generic use of a
computer”); OIP Techs, Inc. v. Amazon.com, Inc., 788
F.3d 1359, 1363 (Fed. Cir. 2015) (holding that “ ‘determin[ing]’ ” an estimated outcome and setting a price”
as well as “sending a ﬁrst set of electronic messages”
are well-understood, routine and conventional) (citation omitted).
The Asserted Patents also fail to explain how the
generic components actually accomplish what is disclosed in the claims, instead reciting results-oriented
functionality such as “sending” and “receiving” orders
and messages, “transferring” payment, and “determining” an incentive amount. See, e.g., D.I. 1, Ex. 1 at
8:49-9:07; see Two-Way Media Ltd. v. Comcast Cable
Commc’ns, LLC, 874 F.3d 1329, 1337 (Fed. Cir. 2017)
(patent-ineligible claim “requires the functional results . . . but does not sufﬁciently describe how to
achieve those results in a non-abstract way”); Intell.

App. 22
Ventures I LLC v. Cap. One Fin. Corp., 850 F.3d 1332,
1342 (Fed. Cir. 2017) (claim language “provides only a
results-oriented solution, with insufﬁcient detail for
how a computer accomplishes it”).
None of the claimed elements, taken individually
or as an ordered combination, provide the required inventive concept “ ‘sufﬁcient to ensure that the patent
in practice amounts to signiﬁcantly more than a patent
upon the ineligible concept itself.’ ” Alice, 573 U.S. at
218 (citation omitted). The claims contain no inventive
concept because they are not directed to “an improvement in computers as tools,” but instead assert an “independently abstract idea[ ] that use[s] computers as
tools.” Elec. Power Grp., LLC v. Alstom S.A., 830 F.3d
1350, 1354 (Fed. Cir. 2016). The fact that the claims recite various technological components such as a “bank
server” and “gateway” is not sufﬁcient to confer patentability where the claims do not offer an improvement
in the functioning of that technology. See buySAFE,
Inc. v. Google, Inc., 765 F.3d 1350, 1354 (Fed. Cir. 2014)
(ﬁnding that where the computer functionality is generic, “[t]he claims’ invocation of computers adds no inventive concept”); see also In re TLI Commc’ns LLC
Pat. Litig., 823 F.3d 607, 612-13 (Fed. Cir. 2016) (ﬁnding that “the focus of the patentee and of the claims
was not on” improved hardware because the speciﬁcation described the functionality of the hardware “in
vague terms without any meaningful limitations”).
Encouraging participation in a system in which all
parties need to utilize similar technology through the
well-known concept of discounting does not offer a

App. 23
technical improvement that would comprise an inventive concept. Therefore, I ﬁnd that the Asserted Patents claim ineligible subject matter.
b. Leave to Take Targeted Discovery and
to Amend
The Asserted Patents claim ineligible subject matter and amending the complaint would be futile where
the claims describe the implementation of a business
transaction using conventional computer technology.
Leave to amend Plaintiff ’s complaint and to conduct
“targeted discovery” (D.I. 17 at 20) is therefore denied.
IV. CONCLUSION
For the reasons stated above, I will grant Defendants’ motion, and dismiss Plaintiff ’s complaint, without leave to amend. An accompanying order will be
entered.

App. 24
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF DELAWARE
FAST 101 PTY LTD.,
Plaintiff,
v.
CITIGROUP INC.
and CITIBANK, N.A.,
Defendants.

§
§
§
§
§
§
§
§
§

Case No. ___
JURY TRIAL
DEMANDED

COMPLAINT FOR PATENT INFRINGEMENT
(Filed Sep. 27, 2019)
Plaintiff Fast 101 Pty Ltd. (“Fast 101”), for its
Complaint against Defendants Citigroup Inc. and Citibank, N.A. (collectively “Defendants”), states and alleges:
I.

THE PARTIES

1. Fast 101 is an Australian company having a
principal place of business at 586 Hampton Street,
Hampton, VIC 3188, Australia.
2. Citigroup Inc. is a Delaware corporation having its principal place of business at 388 Greenwich
Street, New York, New York 10113.
3. Citibank N.A. is a national banking association having its principal place of business at 388
Greenwich Street, New York, New York 10113. On

App. 25
information and belief, Citibank N.A. is wholly-owned
by Citigroup Inc. and is under the control of Citigroup
Inc.
II.

JURISDICTION AND VENUE

4. This action arises under the Patent Act, 35
U.S.C. §§ 101, et seq. The infringing acts of Defendants,
as complained of herein, were committed in this District, among other places, and have caused and continue to cause Fast 101 injury in this District and
elsewhere in the United States. The Court has original
jurisdiction over the parties and the claims asserted in
this action pursuant to 28 U.S.C. §§ 1331 and 1338.
5. This Court has personal jurisdiction over Defendants because they have committed and continue to
commit acts of infringement in this District, have conducted business in this District, and/or have engaged
in continuous and systematic activities in this District.
6. Venue is proper in this district pursuant to 28
U.S.C. § 1400 because Citigroup Inc. is incorporated in
and thus resides in this District and all Defendants
have committed acts of infringement and have regular
and established places of business in this District.
III.

THE PATENTS-IN-SUIT

7. U.S. Patent No. 8,515,867 (“the '867 Patent”),
titled “Invoiceless Trading and Settlement Method and
System,” was ﬁled on March 15, 2013 and claims priority to U.S. Patent Application No. 09/561,990, ﬁled on

App. 26
May 2, 2000. The United States Patent & Trademark
Ofﬁce (“USPTO”) duly and legally issued the '867 Patent on August 20, 2013. A copy of the '867 Patent is
attached hereto as Exhibit 1 and incorporated herein
by reference.
8. U.S. Patent No. 8,660,947 (“the '947 Patent”),
titled “Invoiceless Trading and Settlement Method and
System,” was ﬁled on February 12, 2008 and claims priority to U.S. Patent Application No. 09/561,990, ﬁled on
May 2, 2000. The USPTO duly and legally issued the
'947 Patent on February 25, 2014. A copy of the '947
Patent is attached hereto as Exhibit 2 and incorporated herein by reference.
9. U.S. Patent No. 8,762,273 (“the '273 Patent”),
titled “Invoiceless Trading and Settlement Method and
System,” was ﬁled on February 20, 2014 and claims priority to U.S. Patent Application No. 09/561,990, ﬁled on
May 2, 2000. The USPTO duly and legally issued the
'273 Patent on June 24, 2014. A copy of the '273 Patent
is attached hereto as Exhibit 3 and incorporated herein
by reference.
10. U.S. Patent No. 9,811,817 (“the '817 Patent”),
titled “Invoiceless Trading and Settlement Method and
System,” was ﬁled on June 20, 2014 and claims priority
to U.S. Patent Application No. 09/561,990, ﬁled on May
2, 2000. The USPTO duly and legally issued the '817
Patent on November 7, 2017. A copy of the '817 Patent
is attached hereto as Exhibit 4 and incorporated herein
by reference.

App. 27
11. U.S. Patent No. 10,115,098 (“the '098 Patent”),
titled “Invoiceless Trading and Settlement Method and
System,” was ﬁled on November 6, 2017 and claims priority to U.S. Patent Application No. 09/561,990, ﬁled on
May 2, 2000. The USPTO duly and legally issued the
'098 Patent on October 30, 2018. A copy of the '098 Patent is attached hereto as Exhibit 5 and incorporated
herein by reference.
12. Fast 101 owns and at all relevant times has
owned all rights, title and interest in and to the '867
Patent, the '947 Patent, the '273 Patent, the '817 Patent, and the '098 Patent (collectively, “the Patents-inSuit”).
IV.

THE PATENTED TECHNOLOGY

13. William James Duncan, the inventor of all
ﬁve Patents-in-Suit, is an early innovator in the ﬁeld
of leveraging technology to improve the process of settling invoices and making payments.
14. Mr. Duncan developed the patented technology after recognizing signiﬁcant problems in conventional invoicing and payment systems. As noted in the
speciﬁcation common to all Patents-in-Suit, although
many suppliers and customers had attempted to move
to electronic trading and settlement systems to reduce
the inefﬁciencies of paper-based transactions, see, e.g.,
'098 Patent at 1:31-37, Mr. Duncan recognized that existing electronic trading systems such as Internetbased trading systems had signiﬁcant limitations.

App. 28
15. In particular, Mr. Duncan recognized that all
participants in the process must be similarly technically situated in terms of their online infrastructures
for the beneﬁts of existing invoicing and payment systems to be realized. Id. at 1:60-65. For this reason, at
the time of the inventions of the Patents-in-Suit, the
few systems that tried to address some of the problems
identiﬁed by Mr. Duncan had not been widely adopted.
Mr. Duncan thus developed an electronic system based
on incentives that would encourage participation in
the system among all participants in the transactions.
Id. at 2:9-15. For example, while prior art systems
could calculate discounts for an item to be offered for
purchase before a consumer decided to purchase the
item, Mr. Duncan’s system calculated incentives based
on the circumstances of the transaction itself, such as
the customer’s credit standing or the timing of payment.
16. Mr. Duncan’s inventions are thus directed toward speciﬁc, unconventional improvements in the
technical ﬁeld of electronic invoicing and payment systems rather than abstract ideas. For example, Claim 1
of the '867 Patent recites:
A system conﬁgured for electronic settlement of an order placed by a customer with a
supplier comprising:
one or more bank servers, at least one of the
one or more bank servers receives a message related to the order, the message
comprising at least an order amount;

App. 29
a database associated with at least one of the
one or more bank servers that stores the
order amount;
one or more processors associated with at
least one of the one or more bank servers
that determines an incentive amount,
wherein the incentive amount is determined based at least in part on one or
more ﬁscal attributes of the customer and
the order amount; and
a payment gateway associated with at least
one of the one or more bank servers, the
payment gateway electronically transfers
to a supplier account on a ﬁrst date an
early payment for the order, the supplier
account associated with the supplier,
wherein the early payment is less than
the order amount by at least the incentive
amount, and the payment gateway electronically receives a customer payment
from a customer account on a second date,
the customer account associated with the
customer, wherein the customer payment
is not less than the early payment plus an
interest amount, wherein the interest
amount is based at least in part on a
credit period, wherein the credit period is
an amount of time between the ﬁrst date
and the second date.
17. This claim is not directed to an abstract idea,
but to a speciﬁc system involving bank servers, a database for storing unique order amounts, processors to
determine incentive amounts based on various factors,

App. 30
and a specially-designed and unique payment gateway,
all of which work in concert to implement Mr. Duncan’s
novel incentive-based invoicing system. Exemplary
claims of the other Patents-in-Suit are similar.
18. Using Mr. Duncan’s technology, an incentive
system is applied to a transaction involving a customer
and a supplier. Id. at 3:10-12. The system can then
seamlessly and efﬁciently debit the customer and remit payment to the supplier while applying the incentive system. Id. at 3:12-20.
19. In addition, the claims recite an inventive
concept. The incentive system is implemented through
a speciﬁc, ordered combination of electronic components and communication protocols, again marking
signiﬁcant improvements on existing technical systems. These components include:
•

A customer computer and supplier computer
used by the customer and supplier, respectively, to conduct the transaction (id. at Fig 1A).

•

An electronic gateway used by the customer
to place an order (id. at 3:25-32).

•

An electronic message transmitted immediately by the supplier to the customer via the
electronic gateway to ensure accuracy (id. at
3:36-38).

•

Infrastructure at a settlement bank that electronically receives payment authorization
from the customer and electronically transmits payment to the supplier on speciﬁc dates
while processing and applying the incentive
system (id. at 3:45-54).

App. 31
20. These components are illustrated in Figure
1A of the patents:

App. 32
21.
ure 4:

The settlement process is illustrated in Fig-

App. 33
22. Accordingly, the Patents-in-Suit recite a speciﬁc manner of performing the conceived of improved
invoicing and payment system.
23. The speciﬁcations of the Patents-in-Suit also
provide detailed examples of the types and functionalities of the electronic gateway of the system, again
demonstrating improvements over prior existing systems. Id. at 3:55 – 4:3. The speciﬁcation explains:
An electronic gateway may be an independent
entity or speciﬁc to the type of products being
bought and sold. For example, in the case of a
private network, an electronic gateway may
include an administrator that exchanges, logs
and translates messages between subscribing
customers and subscribing suppliers. In the
case of an open network, the electronic gateway may be the Internet. To provide security
in an open network, a ﬁrewall or VPN may be
used when connecting the customer, supplier,
their respective banks, and the settlement
bank. In addition, the electronic gateway may
include translation, logging, and forwarding
services to ensure the accuracy of all orders,
payments, and notices. An example of an electronic gateway suitable for practicing methods and systems consistent with the present
invention is the AT & T INTERCOMMERCE
gateway, available from AT&T.
Id. The various functions of the gateway are also speciﬁed in the claims of the asserted patents.
24. The speciﬁcations of the Patents-in-Suit also
provide detailed examples of system components to

App. 34
implement the claimed technology in an ordered combination that is required to achieve the stated beneﬁts
of the inventive system. Id. at 4:51 – 6:15.
25. The inventive concept in this ordered combination includes using electronic systems to improve
electronic commerce through incentive systems.
26. The improvements of the Patents-in-Suit
over existing electronic trading systems are further detailed in the speciﬁcations. These improvements include:
•

Tangible incentives to embrace e-commerce,
which was nascent at the time of invention
(id. at 4:5-7).

•

Increased cash ﬂow (id. at 4:7-11).

•

Cost reduction through automation and paper
reduction (id. at 4:15-26).

•

Increased proﬁts (id. at 4:27-51).

27. These speciﬁc improvements are all tied to
the discrete and speciﬁc innovations of the Patents-inSuit, namely, an improved manner of using electronic
systems to implement invoicing and payment incentives. Accordingly, the Patents-in-Suit recite a patentable invention and are not directed to abstract ideas,
but rather speciﬁc technological improvements in a
technical ﬁeld.
28. The claims of the Patents-in-Suit disclose inventive concepts, namely, using electronic systems to

App. 35
improve electronic commerce through incentive systems.
29. The claimed ordered combination of each
Patent-in-Suit thus generally comprises one or more
bank servers or other bank computing equipment, storage components to store information related to orders,
processors to compute incentives, and a payment gateway for use by the supplier and customer to conduct
the transaction, all conﬁgured to execute a speciﬁc
electronic invoicing and payment system with calculated incentives. The gateway technology, as detailed
in the speciﬁcation, facilitates a beneﬁcial transaction
allowing the bank computer equipment to implement
an incentive system that facilitates the invoicing and
payment process, creating signiﬁcant technical improvements over existing technology. This is realized
via a speciﬁc, ordered combination of technical components conﬁgured to perform speciﬁc steps and functions within the transaction.
30. The claims recite speciﬁc technical components that work in conjunction to implement an incentive system between suppliers and customers using an
intermediary settlement institution, such as a bank.
The claims of the Patents-in-Suit go beyond wellunderstood, routine, conventional activities. Indeed,
Mr. Duncan recognized signiﬁcant shortcomings in the
well-understood, routine, and conventional methods of
electronically settling invoices and invented substantial improvements to the known systems.

App. 36
31. The ordered combinations of the claimed
features in the Patents-in-Suit amount to particular,
practical applications of Mr. Duncan’s invention. The
claims of the Patents-in-Suit do not pre-empt all ways
for electronic trading, but instead recite a discrete implementation of electronic trading with a very speciﬁc
order of events to solve existing problems.
V. INFRINGEMENT OF THE
PATENTS-IN-SUIT BY DEFENDANTS
32. Defendants have offered one or more banking services that can generally be characterized as
“supplier ﬁnance” services that infringe at least one
claim of each of the Patents-in-Suit. Defendants’ supplier ﬁnance services include, without limitation, certain implementations of the SWIFT Bank Payment
Obligation (BPO) system.
33. Defendants’ supplier finance services are
electronically implemented systems for settling accounts between suppliers of goods or services and their
customers. Defendants use electronic systems and
components to receive electronic communications related to orders, as well as electronic authorizations to
remit payments to suppliers. The systems enable customers to provide payment to Defendants in satisfaction of the payment previously provided by Defendants
to the supplier on behalf of the customer. The system
includes electronic components and systems that calculate and implement incentive systems, such as discounts for early payments. Incentives are also based on

App. 37
ﬁscal attributes of the customer, such as credit standing.
34. The basic ﬂow of Defendants’ supplier ﬁnance service is as follows. Defendants’ system receives a message that provides information about an
order. A customer authorizes Defendants to remit payment to the supplier on a due date. The supplier receives an early payment from the bank/funds provider,
reduced by an incentive amount based on an early payment and/or ﬁscal attributes of the customer. The customer remits full payment to the Defendants on the
due date or the full payment plus an interest amount
based on the period of time between payment to the
supplier and payment to Defendants. Defendants implement this system through electronic components
and systems, and thus utilize the Patents-in-Suit without authorization
VI. FIRST CLAIM FOR RELIEF
(Patent Infringement Under
35 U.S.C. § 271 – U.S. Patent No. 8,515,867)
35. The allegations set forth in paragraphs 1
through 34 are hereby realleged and incorporated
herein by reference.
36. Defendants have directly and literally, or in
the alternative under the doctrine of equivalents, infringed one or more claims of the '867 Patent, in violation of 35 U.S.C. § 271, in this District and elsewhere
by making, using, selling, offering for sale and/or importing a product or service or products or services that

App. 38
infringe one or more claims of the '867 Patent. Defendants have also induced and contributed to the direct
literal, or in the alternative under the doctrine of
equivalents, infringement of one or more claims of the
'867 Patent, in violation of 35 U.S.C. § 271, in this judicial district and elsewhere by making, using, selling,
and/or offering for sale such products or services.
37. For example, Defendants’ supplier ﬁnance
system infringes at least claim 1 of the '867 Patent.
38. Defendants’ supplier ﬁnance system is a system for electronic settlement of an order placed by a
customer with a supplier.
39. Defendants’ supplier ﬁnance system comprises one or more bank servers, and at least one of the
one or more bank servers receives a message related to
the order, the message comprising at least an order
amount. Defendants’ supplier ﬁnance service includes
bank servers conﬁgured to receive a message such as a
purchase order which is related to an order placed by
a purchaser. The purchase order comprises at least an
order amount.
40. Defendants’ supplier ﬁnance system comprises a database associated with at least one of the
one or more bank servers that stores the order amount.
Defendants’ supplier ﬁnance service includes a database conﬁgured to store data related to the purchase
orders, including the order amount.
41. Defendants’ supplier ﬁnance system comprises one or more processors associated with at least

App. 39
one of the one or more bank servers that determines
an incentive amount, wherein the incentive amount is
determined based at least in part on one or more ﬁscal
attributes of the customer and the order amount. Defendants’ supplier ﬁnance system includes one or more
processors associated with the bank servers conﬁgured
to calculate an incentive amount such as an early payment discount based at least in part on one or more of
the ﬁnancial attributes of the customer, such as credit
history or other indicators of credit standing, and the
order amount.
42. Defendants’ supplier ﬁnance system comprises a payment gateway associated with at least one
of the one or more bank servers. Defendants’ supplier
ﬁnance system allows customers to make payments
electronically via an online payment gateway.
43. The payment gateway of Defendants’ supplier ﬁnance system electronically transfers to a supplier account on a ﬁrst date an early payment for the
order, the supplier account associated with the supplier, wherein the early payment is less than the order
amount by at least the incentive amount. The payment
gateway of Defendants’ supplier finance system is
configured to transfer payment electronically to the
supplier on a particular date or earlier. Further, Defendants’ supplier ﬁnance system is conﬁgured to calculate an incentive amount for early payment, and the
payment to the supplier is reduced by that amount.
44. The payment gateway of Defendants’ supplier ﬁnance system electronically receives a customer

App. 40
payment from a customer account on a second date,
the customer account associated with the customer,
wherein the customer payment is not less than the
early payment plus an interest amount, wherein the
interest amount is based at least in part on a credit
period, wherein the credit period is an amount of time
between the ﬁrst date and the second date. Defendants’ supplier ﬁnance system is conﬁgured to transfer
payment to the supplier on a date earlier than the date
on which the supplier ﬁnance system receives payment
from the customer. Defendants’ supplier ﬁnance system is conﬁgured to calculate an interest amount
based at least in part on a credit period deﬁned as the
period between the date on which payment is transferred to the supplier and the date on which payment
is transferred from the customer. Defendants’ supplier
ﬁnance system is conﬁgured to receive a payment from
the customer that is increased by the interest amount
and decreased by the incentive amount. The payment
gateway of Defendants’ supplier ﬁnance system is conﬁgured to transfer this payment electronically.
45. The infringing products and services include
but may not be limited to the supplier ﬁnance system.
Discovery will be needed to conﬁrm the full nature and
scope of Defendants’ infringing conduct.
46. Because of Defendants’ infringement of the
'867 Patent, Fast 101 has suffered and will continue to
suffer damages.

App. 41
47. Because of Defendants’ infringement of the
'867 Patent, Fast 101 has suffered and will continue to
suffer irreparable harm in this District.
VII.

SECOND CLAIM FOR RELIEF
(Patent Infringement Under
35 U.S.C. § 271 – U.S. Patent No. 8,660,947)
48. The allegations set forth in paragraphs 1
through 47 are hereby realleged and incorporated
herein by reference.
49. Defendants have directly and literally, or in
the alternative under the doctrine of equivalents, infringed one or more claims of the '947 Patent, in violation of 35 U.S.C. § 271, in this District and elsewhere
by making, using, selling, offering for sale and/or importing a product or service or products or services that
infringe one or more claims of the '947 Patent. Defendants have also induced and contributed to the direct
literal, or in the alternative under the doctrine of
equivalents, infringement of one or more claims of the
'947 Patent, in violation of 35 U.S.C. § 271, in this judicial district and elsewhere by making, using, selling,
and/or offering for sale such products or services.
50. For example, Defendant’ supplier ﬁnance
system infringes at least Claim 132 of the '947 Patent.
51. Defendants’ supplier ﬁnance system is one or
more systems used in electronic settlement of an order
placed by a customer with a supplier.

App. 42
52. Defendants’ supplier ﬁnance system comprises one or more bank servers conﬁgured to receive
a payment message, the payment message related to
the order, the payment message comprising an order
amount. Defendants’ supplier ﬁnance service includes
bank servers conﬁgured to receive a message such as a
purchase order which is related to an order placed by
a purchaser. The purchase order comprises at least an
order amount.
53. The order amount is stored in a database associated with at least one of the one or more of the bank
servers. Defendants’ supplier ﬁnance service includes
a database conﬁgured to store data related to the purchase orders, including the order amount.
54. Defendants’ supplier ﬁnance system comprises a processor associated with at least one of the
one or more bank servers that determines an incentive
amount, wherein the incentive amount is determined
based at least in part on one or more ﬁscal attributes
of the customer and the order amount. Defendants’
supplier ﬁnance system includes one or more processors associated with the bank servers conﬁgured to calculate an incentive amount such as an early payment
discount based at least in part on one or more of the
ﬁnancial attributes of the customer, such as credit history or other indicators of credit standing, and the order amount.
55. Defendants’ supplier ﬁnance system comprises a payment gateway associated with at least one
of the one or more bank servers. Defendants’ supplier

App. 43
ﬁnance system allows customers to make payments
electronically via an online payment gateway.
56. The payment gateway of Defendants’ supplier ﬁnance system electronically transfers to a supplier account on a ﬁrst date an early payment for the
order, wherein the supplier account is associated with
the supplier, wherein the early payment is less than
the order amount by at least the incentive amount. The
payment gateway of Defendants’ supplier ﬁnance system is conﬁgured to transfer payment electronically to
the supplier on a particular date. Further, Defendants’
supplier ﬁnance system is conﬁgured to calculate an
incentive amount for early payment, and the payment
to the supplier is reduced by that amount.
57. The payment gateway of Defendants’ supplier finance system electronically receives a customer payment from a customer account on a second
date, the customer account associated with the customer, wherein the customer payment is not less than
the early payment plus an interest amount, wherein
the interest amount is based at least in part on a credit
period, wherein the credit period is an amount of time
between the ﬁrst date and the second date. Defendants’ supplier ﬁnance system is conﬁgured to transfer
payment to the supplier on a date earlier than the date
on which the supplier ﬁnance system receives payment
from the customer. Defendants’ supplier ﬁnance system is conﬁgured to calculate an interest payment
based at least in part on a credit period deﬁned as the
period between the date on which payment is transferred to the supplier and the date on which payment

App. 44
is transferred from the customer. Defendants’ supplier
ﬁnance system is conﬁgured to receive a payment from
the customer that is increased by the interest amount
and decreased by the incentive amount. The payment
gateway of Defendants’ supplier ﬁnance system is conﬁgured to transfer this payment electronically.
58. The infringing products and services include
but may not be limited to the supplier ﬁnance system.
Discovery will be needed to conﬁrm the full nature and
scope of Defendants’ infringing conduct.
59. Because of Defendants’ infringement of the
'947 Patent, Fast 101 has suffered and will continue to
suffer damages.
60. Because of Defendants’ infringement of the
'947 Patent, Fast 101 has suffered and will continue to
suffer irreparable harm in this District.
VIII. THIRD CLAIM FOR RELIEF
(Patent Infringement Under
35 U.S.C. § 271 – U.S. Patent No. 8,762,273)
61. The allegations set forth in paragraphs 1
through 60 are hereby realleged and incorporated
herein by reference.
62. Defendants have directly and literally, or in
the alternative under the doctrine of equivalents, infringed one or more claims of the '273 Patent, in violation of 35 U.S.C. § 271, in this District and elsewhere
by making, using, selling, offering for sale and/or importing a product or service or products or services that

App. 45
infringe one or more claims of the '273 Patent. Defendants have also induced and contributed to the direct
literal, or in the alternative under the doctrine of
equivalents, infringement of one or more claims of the
'273 Patent, in violation of 35 U.S.C. § 271, in this judicial district and elsewhere by making, using, selling,
and/or offering for sale such products or services.
63. For example, Defendants’ supplier ﬁnance
system infringes at least Claim 1 of the '273 Patent.
64. Defendants’ supplier finance system comprises one or more bank servers conﬁgured to electronically receive one or more messages, the one or more
messages relating to an order between a customer and
a supplier, the one or more messages comprising supplier data and an order amount. Defendants’ supplier
ﬁnance service includes bank servers conﬁgured to receive a message such as a purchase order which is related to an order placed by a purchaser. The purchase
order comprises at least an order amount as well as
information about the supplier.
65. Defendants’ supplier ﬁnance system comprises storage conﬁgured to store, for the order, at least
some of the supplier data and the order amount. Defendants’ supplier ﬁnance service includes a database
conﬁgured to store data related to the purchase orders,
including the order amount as well as information
about the supplier.
66. Defendants’ supplier ﬁnance system comprises one or more computer processors conﬁgured to
determine an incentive amount based at least in part

App. 46
on one or more ﬁscal attributes of the customer. Defendants’ supplier ﬁnance system includes one or more
processors associated with the bank servers conﬁgured
to calculate an incentive amount such as an early payment discount based at least in part on one or more of
the ﬁnancial attributes of the customer, such as credit
history or other indicators of credit standing.
67. Defendants’ supplier ﬁnance system comprises a payment gateway conﬁgured to electronically
transfer on a ﬁrst date an early payment for the order
to a bank computer associated with the supplier,
wherein the early payment is less than the order
amount by the incentive amount, the early payment
transferred within a shortened settlement period. Defendants’ supplier ﬁnance system allows customers to
make payments electronically via an online payment
gateway. The payment gateway of Defendants’ supplier
ﬁnance system is conﬁgured to transfer the customer’s
payment electronically to a bank computer associated
with the supplier. Further, Defendants’ supplier ﬁnance system is conﬁgured to calculate an incentive
amount for early payment, and the payment to the
supplier is reduced by that amount. Defendants’ supplier ﬁnance system is conﬁgured to transfer payment
to the supplier within a shortened settlement period if,
for example, the customer makes an early payment.
68. The infringing products and services include
but may not be limited to the supplier ﬁnance system.
Discovery will be needed to conﬁrm the full nature and
scope of Defendants’ infringing conduct.

App. 47
69. Because of Defendants’ infringement of the
'273 Patent, Fast 101 has suffered and will continue to
suffer damages.
70. Because of Defendants’ infringement of the
'273 Patent, Fast 101 has suffered and will continue to
suffer irreparable harm in this District.
IX.

FOURTH CLAIM FOR RELIEF
(Patent Infringement Under
35 U.S.C. § 271 – U.S. Patent No. 9,811,817)
71. The allegations set forth in paragraphs 1
through 70 are hereby realleged and incorporated
herein by reference.
72. Defendants have directly and literally, or in
the alternative under the doctrine of equivalents, infringed Claim 1 of the '817 Patent, in violation of 35
U.S.C. § 271, in this District and elsewhere by making,
using, selling, offering for sale and/or importing a product or service or products or services that infringe one
or more claims of the '817 Patent. Defendants have also
induced and contributed to the direct literal, or in the
alternative under the doctrine of equivalents, infringement of one or more claims of the '817 Patent, in violation of 35 U.S.C. § 271, in this judicial district and
elsewhere by making, using, selling, and/or offering for
sale such products or services.
73. Defendants, using their supplier ﬁnance system, receive, on an authorization date and by a banking computer system, an electronic authorization, the

App. 48
electronic authorization relating to an electronic invoice between a bank customer and a supplier, the
electronic authorization authorizing payment for the
electronic invoice with an invoice amount, the electronic invoice having an electronic invoice due date,
the electronic invoice due date being after the authorization date. Defendants’ supplier ﬁnance system includes a banking computer system under control of
Defendants that receives an electronic authorization
relating to an electronic invoice between a bank customer (purchaser) and a supplier, which relates to
goods or services being purchased by the customer
from the supplier. The authorization authorizes Defendants to pay the invoice amount and speciﬁes a due
date after the date of authorization.
74. Based on the electronic authorization, Defendants electronically transfer to a supplier account,
on an earlier payment date, the earlier payment date
being before the electronic invoice due date, a discounted payment amount for settlement of the invoice.
Defendants’ supplier ﬁnance system calculates an incentive based on early payment and applies this discount to the payment if, for example, payment is made
early by the customer.
75. The discounted payment amount discounted
from the invoice amount is based at least on a ﬁscal
attribute of the bank customer; and a credit period, the
credit period being an amount of time between the earlier payment date and the electronic invoice due date.
The incentive amount is based at least in part on one
or more of the ﬁnancial attributes of the customer, such

App. 49
as credit history or other indicators of credit standing,
and the extent to which payment is made early.
76. After the credit period, Defendants electronically debit at least the discounted payment amount
from an account associated with the bank customer.
Defendants debit the purchaser’s account for the
amount paid after Defendants pay the supplier on behalf of the purchaser.
77. The infringing products and services include
but may not be limited to the supplier ﬁnance system.
Discovery will be needed to conﬁrm the full nature and
scope of Defendants’ infringing conduct.
78. Because of Defendants’ infringement of the
'817 Patent, Fast 101 has suffered and will continue to
suffer damages.
79. Because of Defendants’ infringement of the
'817 Patent, Fast 101 has suffered and will continue to
suffer irreparable harm in this District.
X. FIFTH CLAIM FOR RELIEF
(Patent Infringement Under
35 U.S.C. § 271 – U.S. Patent No. 10,115,098)
80. The allegations set forth in paragraphs 1
through 79 are hereby realleged and incorporated
herein by reference.
81. Defendants have directly and literally, or
in the alternative under the doctrine of equivalents,
infringed one or more claims of the '098 Patent, in

App. 50
violation of 35 U.S.C. § 271, in this District and elsewhere by making, using, selling, offering for sale and/or
importing a product or service or products or services
that infringe one or more claims of the '098 Patent. Defendants have also induced and contributed to the direct literal, or in the alternative under the doctrine of
equivalents, infringement of one or more claims of the
'098 Patent, in violation of 35 U.S.C. § 271, in this judicial district and elsewhere by making, using, selling,
and/or offering for sale such products or services.
82. For example, Defendants’ supplier ﬁnance
system infringes at least Claim 1 of the '098 Patent.
83. Defendants, using their supplier ﬁnance system, receive, on an authorization date and by a server,
an electronic authorization, the electronic authorization relating to an invoice between a customer and a
supplier, the authorization authorizing payment for
the invoice, the invoice comprising an invoice amount
and an invoice due date, the invoice due date being
after the authorization date. Defendants’ supplier finance system includes a server that receives an electronic authorization relating to an invoice between a
customer (purchaser) and a supplier, which relates to
goods or services being purchased by the customer
from the supplier. The authorization authorizes Defendants to pay the invoice amount and speciﬁes a due
date after the date of authorization.
84. Based on the electronic authorization, Defendants electronically transfer to a supplier account,
on an earlier payment date, the earlier payment date

App. 51
being before the invoice due date, a discounted payment amount for settlement of the invoice. Defendants’
supplier ﬁnance system calculates an incentive based
on early payment and applies this discount to the payment if payment is made early by the customer.
85. The discounted payment amount discounted
from the invoice amount is based at least on: one or
more ﬁscal attributes of the customer; and a credit period, the credit period being an amount of time between the earlier payment date and the electronic
invoice due date. The incentive amount is based at
least in part on one or more of the ﬁnancial attributes
of the customer, such as credit history or other indicators of credit standing, and the extent to which payment is made early.
86. After the credit period, Defendants electronically debit a customer payment from an account
associated with the customer, wherein the customer
payment is at least the discounted payment amount.
Defendants debit the purchaser’s account for the
amount paid after Defendants pay the supplier on behalf of the customer.
87. The infringing products and services include
but may not be limited to the supplier ﬁnance system.
Discovery will be needed to conﬁrm the full nature and
scope of Defendants’ infringing conduct.
88. Because of Defendants’ infringement of the
'098 Patent, Fast 101 has suffered and will continue to
suffer damages.

App. 52
89. Because of Defendants’ infringement of the
'098 Patent, Fast 101 has suffered and will continue to
suffer irreparable harm in this District.
XI.

PRAYER FOR RELIEF

WHEREFORE, Fast 101 prays for judgment in its
favor and against Defendants as follows:
a. That Defendants have infringed one or more
claims of the Patents-in-Suit;
b. That Defendants, their officers, directors,
agents, servants, employees, privies, representatives,
attorneys, parent and subsidiary corporations or other
related entities, successors, assigns, licensees, retail
distributors, and all persons in active concert or participation with any of them, be permanently enjoined
from further acts of infringement of the Patents-inSuit;
c. That Fast 101 be awarded damages in an
amount to be determined at trial for Defendants’ infringing activities, which are at least a reasonable royalty;
d. That Fast 101 be awarded treble damages by
reason of any willful, wanton and deliberate infringement found under 35 U.S.C. § 284;
e. That Fast 101 be awarded its pre-judgment
and post judgment interest; 22
f. That Fast 101be awarded its costs and expenses of suit, including expert witness fees;

App. 53
g. That Fast 101 be awarded its attorneys’ fees
should this be found to be an exceptional case under 35
U.S.C. § 285;
h. That Defendants be ordered to deliver to Fast
101, for destruction at Fast 101’s option, all products
that infringe the Patents-in-Suit;
i. That Defendants be required to account for all
gains, proﬁts, advantages, and unjust enrichment derived from its violations of law; and
j. That Fast 101 be awarded other and further relief as the Court deems appropriate and just.
XII.

JURY DEMAND

Fast 101 demands a trial by jury on all issues so
triable.
Dated: September 27, 2019

OF COUNSEL:
Robert R. Brunelli
Matthew C. Holohan
Tara K. Hawkes
SHERIDAN ROSS P.C.

KLEHR HARRISON
HARVEY BRANZBURG,
LLP
/s/ Raymond H. Lemisch
Raymond H. Lemisch
(Bar No. 4204)
Sean M. Brennecke
(Bar No. 4686)
919 N. Market Street,
Suite 1000
Wilmington, Delaware 19801
Telephone: (302) 552-5530
rlemisch@klehr.com
sbrennecke@klehr.com

App. 54
1560 Broadway, Suite 1200 ATTORNEYS FOR
Denver, Colorado 80202 5141
PLAINTIFF 101 PTY LTD
Telephone: 303 863 9700
Facsimile: 303 863 0223
E mail:
litigation@
sheridanross.com
rbrunelli@
sheridanross.com
mholohan@
sheridanross.com
thawkes@
sheridanross.com

